          DEPARTMENT OF HEALTH & HUMAN SERVICES                                 OFFICE OF INSPECTOR GENERAL

(-7t
,~~                                                                              Offce of Audit Services Region II

                                                                                 Public Leger Bnildi, Suite 316

                                                                                 150 S. Independence Mal West
                                                                                 Philadelphia, PA 19106-3499


                                                AUG i 4 2009





       Report Number: A-03-07-00032

       Ms. Tracey Mooney
       Chief Financial Offcer
       Independent Dialysis Foundation
       840 Hollns Street
       Baltimore, Marland 21201

       Dear Ms. Mooney:

       Enclosed is the U.S. Deparent of Health and Human Services (HHS), Office of Inspector
       General (OIG), final report entitled "Payments for Epogen Administered at Independent Dialysis
       Foundation-Parkview Center, Baltimore, Maryland." We wil forward a copy of this report to
       the HHS action offcial noted on the following page for review and any action deemed necessary.

       The HHS action official wil make final determnation as to actions taken on all matters reported.
       We request that you respond to ths official withn 30 days from the date of ths letter. Your
       response should present any comments or additional information that you believe may have a
       bearng on the final determnation.

       Pursuant to the Freedom of Inormation Act,S U.S.c. § 552, OIG reports generally are made
       available to the public to the extent that information in the report is not subject to exemptions in
       the Act. Accordingly, ths report wil be posted on the Internet at http://oig.hhs.gov.

       If you have any questions or comments about ths report, please do not hesitate to call me at
       (215) 861-4470 or though email at Stephen.VirbitskytQoig.hhs.gov, or contact Bernard Siegel,
       Audit Manager, at (215) 861-4484 or though email at Bemard.SiegeltQoig.hhs.gov. Please refer
       to report number A-03-07-00032 in all correspondence.

                                                      Sincerely,


                                                     )-L~ ~ -­
                                                      Stephen Virbitsky
                                                      Regional Inspector General
                                                        for Audit Services


       Enclosure
Page 2 - Ms.
Page     Ms. Tracey
             Tracey Mooney
                    Mooney


Direct Reply to HHS Action Official:
Direct                     Offcial:

Nanette Foster Reilly,
Nanette                ConsortiumAdministrator
               Reily, Consortum    Administrator
Consortiumfor
Consortum   forFinancial
                FinancialManagement
                          Management&& Fee
                                         Feefor
                                             forService
                                                 ServiceOperations
                                                        Operations (CFMFFSO)
                                                                    (CFMFFSO)
Centers for Medicare
            Medicare & & Medicaid
                         Medicaid Services
                                  Services
           th
    East 12th
601 East 12 Street, Room 235
                    Room 235
Kansas City, Missouri 64106
             Missouri 64106
rokcmora@cms.hhs.gov
rokcmora tQ cms.hhs.gov
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





        PAYMENTS FOR 

   EPOGEN ADMINISTERED AT 

    INDEPENDENT DIALYSIS 

        FOUNDATION— 

      PARKVIEW CENTER, 

    BALTIMORE, MARYLAND





                    Daniel R. Levinson

                     Inspector General 


                       August 2009

                      A-03-07-00032

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 


BACKGROUND 


Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages who have end-stage renal disease (permanent kidney failure requiring a
kidney transplant or dialysis). The Centers for Medicare & Medicaid Services administers the
program.

Section 1881(a) of the Act establishes the benefits provided by Medicare Parts A and B for
individuals who have been determined to have end-stage renal disease as provided in section
226A of the Act. Benefits include injections of Epogen, usually administered during dialysis.
Individuals diagnosed with end-stage renal disease often suffer from anemia, and Epogen lessens
the effects of anemia for those patients. Epogen doses are generally adjusted by a physician
based on a review of the patient’s medical record. For facilities that use a preestablished dosing
algorithm, a nurse may also adjust the Epogen dose to maintain an optimal hematocrit (red blood
cell) level.

As a basis for payment, section 1833(e) of the Act states: “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due . . . .” Federal
regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information, upon
request, to determine whether payment is due and, if so, the amount to be paid.

Independent Dialysis Foundation—Parkview Center (Parkview Center) is an outpatient dialysis
treatment facility, located in Baltimore, Maryland. Parkview Center provides treatment for end-
stage renal disease using 36 renal dialysis stations. It received payments totaling $7,699,964 for
Medicare services provided from January 1, 2004, through June 30, 2006. Of this amount,
$2,524,829 was for the administration of Epogen. During our audit period, Parkview Center
used dosing algorithms to adjust patient Epogen doses.

OBJECTIVE

Our objective was to determine whether Parkview Center administered, billed, and was paid for
units of Epogen consistent with the units that were ordered by attending physicians, as reflected
in Parkview Center’s medical records.

SUMMARY OF FINDING

For 97 of the 100 sampled claims, Parkview Center administered, billed, and was paid for units
of Epogen that were consistent with the units ordered by attending physicians, as reflected in
Parkview Center’s medical records. However, Parkview Center did not meet the Medicare
payment requirements for some dates of service for three claims. In those instances, we
identified discrepancies in Parkview Center’s medical and billing records between the units of
Epogen ordered by the patients’ attending physicians and the units administered to the patients,



                                                 i
billed by Parkview Center, and paid by Medicare. In addition, for 46 of the 100 claims (11 of the
claims had two errors and one claim had three errors), Parkview Center medical and billing
records reflected errors that we considered procedural because they did not result in
overpayments.

   •	 For three claims with errors totaling $106, Parkview Center billed and Medicare paid for
      more units of Epogen than were ordered by the attending physicians.

   •	 For 9 of the 46 claims, Parkview Center’s medical and billing records reflected
      discrepancies between the units of Epogen ordered by patients’ attending physicians and
      the units administered to patients, billed by Parkview Center, and paid by Medicare. For
      purposes of this report, we considered these errors procedural because they did not result
      in overpayments.

   •	 For 23 of the 46 claims, Parkview Center’s medical records reflected errors in
      documenting the ordering and administration of Epogen but not discrepancies in the
      quantities of Epogen ordered, administered, billed, or paid. For purposes of this report,
      we considered these errors procedural because they did not result in overpayments.

   •	 For 27 of the 46 claims, Parkview Center’s medical records reflected errors in the
      hematocrit levels reported with the claims. For purposes of this report, we considered
      these errors procedural because they did not result in overpayments.

Although Parkview Center had controls in place, based on our review, Parkview Center
personnel did not always follow those procedures. The errors related to the three claims that
resulted in overpayments occurred because nurses did not always follow Parkview Center policy
and procedures for ensuring that attending physicians’ orders changing the dose of Epogen were
identified and entered into the Parkview Center System accurately and in a timely manner. As a
result, Parkview Center received $106 in overpayments and patients did not always receive the
amounts of Epogen ordered by attending physicians. When attending physicians’ orders are not
followed, quality of care may be affected.

RECOMMENDATIONS

We recommend that Parkview Center:

   •	 refund the $106 in overpayments and

   •	 ensure that it follows policies and procedures that are consistent with Federal
      requirements in order to avoid discrepancies between the units of Epogen ordered by
      patients’ physicians and the units administered to the patient, billed by Parkview Center,
      and paid by Medicare.




                                               ii
INDEPENDENT DIALYSIS FOUNDATION COMMENTS

In comments on our draft report (see Appendix), Independent Dialysis Foundation stated that it
will contact the intermediary about refunding the $106 in overpayments, the nursing staff will
undergo a training program to improve compliance with policies and procedures related to
documenting patient care services provided, and physicians were instructed on the correct
process to follow for changing medication orders.




                                               iii
                                                 TABLE OF CONTENTS 


                                                                                                                                   Page

INTRODUCTION.......................................................................................................................1 


          BACKGROUND ..............................................................................................................1 

              Medicare ...............................................................................................................1      

              Epogen Therapy for End-Stage Renal Disease Patients .......................................1 

              Medicare Requirements and Payments for End-Stage Renal Disease Services ...2 

              Independent Dialysis Foundation—Parkview Center...........................................2 

              Parkview Center Procedures for Administering Epogen and 

                Medical Information System .............................................................................2 


          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................3 

               Objective ...............................................................................................................3    

               Scope.....................................................................................................................3   

               Methodology .........................................................................................................3        


FINDINGS AND RECOMMENDATIONS .............................................................................4 


          FEDERAL REQUIRMENTS ...........................................................................................5                   

               Medical Recordkeeping ........................................................................................5               

               Medicare Payment Procedures..............................................................................5                    


          CLAIMS FOR EPOGEN NOT CONSISTENT WITH PHSYCIANS’ ORDERS ..........5 

               More Units of Epogen Ordered, Billed and Paid Than Administered..................6 

               More Units of Epogen Administered, Billed, and Paid Than Ordered.................6 


          CLAIM WITH PROCEDURAL ERRORS THAT RESULTED IN
            DISCREPANCIES........................................................................................................7 

                Fewer Units of Epogen Administered, Billed, and Paid Than Ordered................7 

                Claims Not Correctly Billed .................................................................................7               

                More Units of Epogen Administered Than Ordered, Billed, and Paid.................7 


          CLAIMS WITH PROCEDURAL ERRORS THAT DID NOT RESULT IN
            DISCREPANCIES........................................................................................................7 

                Unsigned Treatment Sheets ..................................................................................8                

                Missing Treatment Sheets and Physician Orders..................................................8 

                Claims with Incorrect Hematocrit Levels .............................................................9 


          PARKVIEW CENTER’S POLICY AND PROCEDURES NOT ALWAYS 

            FOLLOWED.................................................................................................................9





                                                                   iv
    RECOMMENDATIONS................................................................................................10   


    INDEPENDENT DIALYSIS FOUNDATION COMMENTS.......................................10 


APPENDIX

    INDEPENDENT DIALYSIS FOUNDATION COMMENTS




                                                        v
                                              INTRODUCTION 


BACKGROUND

Medicare

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Epogen Therapy for End-Stage Renal Disease Patients

Section 1881(a) of the Act establishes the benefits provided by Medicare Parts A and B for
individuals who have been determined to have end-stage renal disease as provided in
section 226A of the Act. Benefits include injections of Epogen, usually administered during
dialysis. 1

Individuals diagnosed with end-stage renal disease often suffer from anemia, and Epogen lessens
the effects of anemia for those patients. The initial dose of Epogen is based on an individual’s
weight and hematocrit level, a measure of the percentage of red blood cells in the blood. The
target hematocrit level for dialysis patients receiving Epogen therapy is 30 to 36 percent, which
represents a hemoglobin level of 10 to 12 grams per deciliter. 2 For dialysis patients, hematocrit
levels above 36 percent can lead to increased risk of cardiovascular complications and death. 3

Epogen doses are generally adjusted by a physician based on a review of the patient’s medical
record. Some facilities may also use a preestablished dosing algorithm. An algorithm is a
formula established by the facility Medical Director and ordered by the physician. It requires the
nurse on duty to gather information from the patient’s medical record and determine the correct
dose of Epogen to maintain an optimal hematocrit level. Based on the algorithm, a nurse may
decrease, increase, or maintain the Epogen dose or temporarily suspend the dose for one or more
treatments. Independent Dialysis Foundation—Parkview Center (Parkview Center) used dosing
algorithms to adjust patient Epogen doses.




1
 Epogen is an “erythropoietin-stimulating agent,” manufactured by Amgen, which stimulates the production of red
blood cells.
2
    CMS “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 60.4.
3
 After our audit period, the Food and Drug Administration issued a black box label warning for Epogen that
“erthropoiesis-stimulating agents (ESAs) increased the risk for death and for serious cardiovascular events when
administered to target a hemoglobin of greater than 12 [grams per deciliter] . . . .” Food and Drug Administration,
“Epogen Label,” March 9, 2007. Available online at http://www.fda.gov/cder/foi/label/2007/103234s51221bl.pdf.
Accessed on April 23, 2009.


                                                         1

Medicare Requirements and Payments for End-Stage Renal Disease Services

As a basis for payment, section 1833(e) of the Act states: “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due . . . .” Federal
regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information, upon
request, to determine whether payment is due and, if so, the amount to be paid.

CMS’s “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 10.1,
specifies that renal dialysis facilities receive a composite rate for outpatient maintenance dialysis
services. The composite rate is a comprehensive payment for dialysis services except for bad
debts, physicians’ patient care services, separately billable laboratory services, and separately
billable drugs, including Epogen. CMS contracts with fiscal intermediaries 4 to process and pay
Medicare Part B claims for Epogen administered by renal dialysis facilities. Generally, for each
patient, providers submit one bill per month, which includes the charges for up to 14 dialysis
treatments, separately billable laboratory services, and separately billable drugs, including
Epogen. Providers submitted claims that identified the total units of Epogen administered to
each patient during the billing period, not the dose of Epogen administered during each
treatment. Payments for Epogen are subject to Medicare Part B deductible and coinsurance
requirements.

Independent Dialysis Foundation—Parkview Center

Independent Dialysis Foundation, located in Baltimore, Maryland, is a not-for-profit
organization affiliated with the University of Maryland that provides renal dialysis services to
patients at nine renal dialysis facilities located in Maryland. Parkview Center, located in
Baltimore, Maryland, provides treatment for end-stage renal disease at 36 renal dialysis stations.
It received payments totaling $7,699,964 for Medicare services provided from January 1, 2004,
through June 30, 2006. Of this amount, $2,524,829 was for the administration of Epogen.

Parkview Center Procedures for Administering Epogen and Medical Information System

Parkview Center’s procedures regarding “intravenous Erythropoietin infusion” (Epogen) are
limited; however, the procedures state that the patient’s medical record should be checked before
dialysis treatment for allergies and to verify physician’s orders for current Epogen dose, route,
and frequency. All medication should be labeled with the patient’s name, name of medication,
the dose, route, date, and initials of the individual preparing the dose. Also, the administering
nurse should document the time, dose, route, and how the medication was tolerated on the
treatment sheet and the administering nurse should sign the treatment sheet once dialysis
treatment has been administered. Parkview Center uses the Clinical Vision Version 4 (Parkview
Center System), which is a medical information system that documents all procedures and
medications prescribed for and provided to patients.

4
 During the audit period, the Medicare Part B claims we reviewed were processed and paid by fiscal intermediaries.
The Medicare Modernization Act of 2003, P.L. No. 108-173, which became effective on October 1, 2005, amended
certain sections of the Act, including section 1842(a), to require that Medicare administrative contractors replace
carriers and fiscal intermediaries by October 2011.


                                                         2

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Parkview Center administered, billed, and was paid for
units of Epogen consistent with the units that were ordered by attending physicians, as reflected
in Parkview Center’s medical records.

Scope

Our review covered 4,178 monthly claims totaling $2,524,829 for Epogen administered by
Parkview Center from January 1, 2004, through June 30, 2006.

We limited our review of Parkview Center’s internal controls to the administration of and billing
for Epogen, including medical recordkeeping. The objective of our review did not require an
understanding or assessment of Parkview Center’s complete internal control structure. We did
not determine the medical necessity of any items or services, including Epogen.

We performed fieldwork at Parkview Center in Baltimore, Maryland.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Federal laws, regulations, and guidance related to the treatment of
      end-stage renal disease, renal dialysis facilities, and the administration of Epogen;

   •	 reviewed applicable State laws, regulations, and guidance related to Parkview Center’s
      policies and procedures for intravenous Erythropoietin infusion;

   •	 reviewed Parkview Center’s policies and procedures, including its medical recordkeeping
      and billing practices;

   •	 interviewed Parkview Center officials;

   •	 identified and assessed the adequacy of internal controls related to the administration of
      and billing for Epogen; and

   •	 identified a sampling frame of all claims in the CMS claims history file with Epogen
      administered at Parkview Center from January 1, 2004, through June 30, 2006, and:

        o	 selected from the sampling frame a simple random sample of 100 claims for Epogen
           totaling $64,606 and

        o	 for each sampled claim, compared the units of Epogen ordered by the Parkview
           Center attending physician, administered to patients, billed by Parkview Center, and


                                                3

           paid by Medicare to determine whether such units, as reflected in Parkview Center’s
           medical and billing records, were consistent with each other.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

For 97 of the 100 sampled claims, Parkview Center administered, billed, and was paid for units
of Epogen that were consistent with the units ordered by attending physicians, as reflected in
Parkview Center’s medical records. However, Parkview Center did not meet the Medicare
payment requirements for some dates of service for three claims. In those instances, we
identified discrepancies in Parkview Center’s medical and billing records between the units of
Epogen ordered by the patients’ attending physicians and the units administered to the patients,
billed by Parkview Center, and paid by Medicare. In addition, for 46 of the 100 claims (11 of the
claims had two errors and one claim had three errors), Parkview Center medical and billing
records reflected errors that we considered procedural because they did not result in
overpayments.

   •	 For three claims with errors totaling $106, Parkview Center billed and Medicare paid for
      more units of Epogen than were ordered by the attending physicians.

   •	 For 9 of the 46 claims, Parkview Center’s medical and billing records reflected
      discrepancies between the units of Epogen ordered by patients’ attending physicians and
      the units administered to patients, billed by Parkview Center, and paid by Medicare. For
      purposes of this report, we considered these errors procedural because they did not result
      in overpayments.

   •	 For 23 of the 46 claims, Parkview Center’s medical records reflected errors in
      documenting the ordering and administration of Epogen but not discrepancies in the
      quantities of Epogen ordered, administered, billed, or paid. For purposes of this report,
      we considered these errors procedural because they did not result in overpayments.

   •	 For 27 of the 46 claims, Parkview Center’s medical records reflected errors in the
      hematocrit levels reported with the claims. For purposes of this report, we considered
      these errors procedural because they did not result in overpayments.

Although Parkview Center had controls in place, based on our review, Parkview Center
personnel did not always follow those procedures. The errors related to the three claims that
resulted in overpayments occurred because nurses did not always follow Parkview Center policy
and procedures for ensuring that attending physicians’ orders changing the dose of Epogen were
identified and entered into the Parkview Center System accurately and in a timely manner. As a
result, Parkview Center received $106 in overpayments and patients did not always receive the


                                               4

amounts of Epogen ordered by attending physicians. When attending physicians’ orders are not
followed, quality of care may be affected.

FEDERAL REQUIREMENTS

Medical Recordkeeping

As a condition for coverage during our audit period, renal dialysis facilities were required to
centralize all clinical information in each patient’s medical record in accordance with accepted
professional standards and practices (42 CFR § 405.2139). 5 The medical records were required
to be “completely and accurately documented, readily available, and systematically organized to
facilitate the compilation and retrieval of information.” Subsection (a) of 42 CFR § 405.2139
further stated that medical records must contain certain general categories of information,
including “diagnostic and therapeutic orders; observations, and progress notes; reports of
treatments and clinical findings . . . .”

Medicare Payment Procedures

As a basis for payment, Section 1833(e) of the Act states “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due such provider or other
person under this part for the period with respect to which the amounts are being paid or for any
prior period.”

Federal regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information,
upon request, to determine whether payment is due and, if so, the amount to be paid.

CMS’s “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 60.4,
requires that renal dialysis facilities report the patient’s hematocrit level for claims that include
administered Epogen. Prior to January 1, 2006, the hematocrit level reported should be the level
taken prior to the last dose of Epogen administered during the billing period. Beginning January
1, 2006, the hematocrit level reported should be the patient’s most recent level taken before the
start of the billing period.

CLAIMS FOR EPOGEN NOT CONSISTENT WITH PHYSICIANS’ ORDERS

For each sample claim, we compared Parkview Center’s medical and billing records with respect
to the units of Epogen (1) ordered by the patients’ attending physicians, (2) administered by the
nurse to the patient, (3) billed by Parkview Center, and (4) paid by Medicare. For three claims
with questioned amounts totaling $106, there were discrepancies in Parkview Center’s medical
and billing records between the units of Epogen ordered by the attending physician and the units
of Epogen administered and billed by Parkview Center, and paid by Medicare. For two claims
the patient received fewer units of Epogen than ordered, billed, and paid. For one claim


5
 This condition for coverage was amended effective October 14, 2008. The amended condition for coverage is now
at 42 CFR § 494.170.


                                                      5

Parkview Center administered, billed, and Medicare paid for more units of Epogen than ordered
by the attending physician, as documented in Parkview Center’s medical and billing records.

More Units of Epogen Ordered, Billed and Paid Than Administered

For two claims covering two patients, Parkview Center’s medical records contained attending
physicians’ orders that increased the units of Epogen prescribed, but an assigned staff member
did not record the changes in the Parkview Center System. Consequently, the Parkview Center
System printed treatment sheets showing the original units ordered, which were administered to
the patients. However, Parkview Center billed and Medicare paid for the higher units of Epogen
ordered by the attending physician.

   •	 For one claim the attending physician’s order, dated June 28, 2005, increased the
      prescribed Epogen dose from 10,000 to 12,500 units. However, the treatment sheet for
      June 29 reflected the original dose of 10,000 units, which the nurse administered to the
      patient. Parkview Center billed and Medicare paid for 12,500 units reflected in the
      attending physician’s order. Parkview Center billed and Medicare paid for 2,500 more
      units, totaling $20, than were administered.

   •	 For one claim the attending physician’s order, dated January 24, 2006, increased the
      prescribed Epogen dose from 7,500 to 9,000 units. However, the treatment sheet for
      January 25 reflected the original dose of 7,500 units, which the nurse administered to the
      patient. Parkview Center billed and Medicare paid for 9,000 units reflected in the
      attending physician’s order. Parkview Center billed and Medicare paid for 1,500 more
      units of Epogen, totaling $11, than were administered.

The Parkview Center billing department did not reconcile differences between the service
administration report, which reflects the units of Epogen ordered and administered, and the
accounting system records. If a difference is identified, billing personnel review the patient
treatment sheet to determine the correct units of Epogen administered. As a result, Parkview
Center billed and Medicare paid for 4,000 more units of Epogen, totaling $31, than were
administered.

More Units of Epogen Administered, Billed, and Paid Than Ordered

For one claim, Parkview Center’s medical records included the attending physician’s order to
decrease the units of Epogen from 15,000 to 13,000 units, but an assigned staff member did not
record the change in the Parkview Center System. Consequently, the Parkview Center System
printed treatment sheets showing the original units ordered, which were administered to the
patient for five treatments after the lower dose was prescribed by the attending physician. As a
result, Parkview Center administered and billed, and Medicare paid for 10,000 more units of
Epogen, totaling $75, than were ordered.




                                                6

CLAIMS WITH PROCEDURAL ERRORS THAT RESULTED IN DISCREPANCIES

For nine claims, Parkview Center’s medical and billing records reflected discrepancies between
the units of Epogen ordered by the patients’ attending physicians and the units administered to
the patients, billed by Parkview Center, and paid by Medicare for one or more dates of service
during the month reviewed that did not result in an overpayment and are, for purposes of this
report, considered procedural errors. For four of these claims patients received fewer units of
Epogen than ordered. For three claims, Parkview Center did not bill for the units of Epogen that
were ordered and administered. For two claims patients received more units of Epogen than
ordered by attending physicians.

Fewer Units of Epogen Administered, Billed, and Paid Than Ordered

For four claims, Parkview Center’s medical records included attending physicians’ orders to
change the units of Epogen. For three of these claims, physicians’ orders increased the units of
Epogen but an assigned staff member did not enter the changes in the Parkview Center System
on a timely basis. For one of these claims, the physician order decreased the units of Epogen
from 5,000 to 4,500 units but an assigned staff member entered the change in the Parkview
Center System as 4,000 units. As a result, the ordered amounts did not appear on the treatment
sheets. Nurses continued to administer the fewer units of Epogen for two to eight treatments.
Parkview Center administered, billed, and was paid for fewer units of Epogen than ordered.

Claims Not Correctly Billed

For three claims, Parkview Center medical records reflected that three patients received the dose
of Epogen (500, 6,500, and 10,000 units) prescribed by attending physicians. However,
Parkview Center did not bill for the 500 and 6,500 unit doses and only billed for 7,500 of the
10,000 unit dose. As a result, Medicare did not pay for 9,500 units, totaling $73, that were
administered but not billed by Parkview Center.

More Units of Epogen Administered Than Ordered, Billed, and Paid

For two claims, Parkview Center’s medical records included attending physicians’ orders to
suspend or decrease the frequency of Epogen doses but the changes were not entered into the
Parkview Center System correctly or on a timely basis. Consequently, the ordered amounts did
not appear on the treatment sheets. Nurses administered a total of 21,000 more units of Epogen
than ordered for one or two treatments during the months reviewed. However, Parkview Center
billed and Medicare paid for the units of Epogen ordered by the attending physicians.

CLAIMS WITH PROCEDURAL ERRORS THAT DID NOT RESULT IN
DISCREPANCIES

Parkview Center’s intravenous Erythropoietin infusion procedures state that the patient’s medical
record should be checked before dialysis treatment to verify the physician’s orders for the current
Epogen dose, route, and frequency and that all medication should be labeled with the patient’s
name, name of medication, dose, route, date, and the initials of the individual preparing the dose.



                                                7

Also, the administering nurse should document the time, dose, route, and how the medication
was tolerated on the treatment sheet and the administering nurse should sign the treatment sheet
once dialysis treatment has been administered.

CMS’s “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 60.4,
requires that renal dialysis facilities report the patient’s hematocrit level for claims that include
administered Epogen. Prior to January 1, 2006, the hematocrit level reported should be the level
taken prior to the last dose of Epogen administered during the billing period. Beginning January
1, 2006, the hematocrit level reported should be the patient’s most recent level taken before the
start of the billing period.

For 23 claims Parkview Center’s medical records reflected errors in documenting the ordering
and administration of Epogen for one or more dates of service for the months reviewed but not
discrepancies in the quantities of Epogen ordered, administered, billed, or paid.

   •	 For 17 claims the patients’ treatment sheets were not signed or initialed by the 

      administering nurses. 


   •	 For six claims the patients’ medical records did not include either a copy of the treatment
      sheets or the attending physician’s order for Epogen services.

For 27 claims, the hematocrit level included on the claims was not correct.

Unsigned Treatment Sheets

For 17 claims Parkview Center’s medical records lacked the signature/initials of the
administering nurse, as required by Parkview Center’s internal policy and procedures for
administering intravenous Erythropoietin infusions. Based on other medical record documents,
we verified that nurses administered the units of Epogen consistent with the patients’ attending
physicians’ orders, but 19 treatment sheets during the months reviewed, were not signed or
initialed by the administering nurses. Parkview Center administered and billed and Medicare
paid for the units of Epogen ordered by the attending physician.

Missing Treatment Sheets and Physician Orders

For six claims Parkview Center’s medical records were missing patients’ treatment sheets or the
attending physician’s order for one or more dates of service.

   •	 For four claims, treatment sheets were missing for one date of service during the months
      reviewed.

   •	 For one claim, the patient’s treatment sheets for the entire month reviewed were not
      available and, according to Parkview Center personnel, destroyed by accident.

   •	 For one claim, the attending physician’s order for Epogen for the month reviewed was
      not available and, according to Parkview Center personnel, destroyed by accident.


                                                  8

For these six claims, based on Parkview Center’s service administration report, we verified that
the units of Epogen administered and billed by Parkview Center and paid by Medicare agreed
with the units ordered by attending physicians.

Claims with Incorrect Hematocrit Levels

For 27 claims, Parkview Center’s billing records reflected a hematocrit level that was different
than the hematocrit level reflected in the patients’ medical records.

   •	 For calendar years 2004 and 2005, Parkview Center should have reported the last
      hematocrit level during the billing period on the claim. The hematocrit levels submitted
      on six claims were not correct.

   •	 For calendar year 2006, Parkview Center should have reported the last hematocrit level
      before the start of the billing period on the claim. The hematocrit levels on 21 claims
      were not correct.

Although the hematocrit levels for the 27 claims were not correct, the amount Medicare paid for
those claims did not result in overpayments.

PARKVIEW CENTER’S POLICY AND PROCEDURES NOT ALWAYS FOLLOWED

Parkview Center personnel stated that they did not have an extensive set of written policy and
procedures for the administration of renal dialysis treatment, including the administration of
Epogen, other medications, and other related procedures. Parkview Center’s policy on the
administration of medication is limited but identifies the key steps to ensure that a patient
receives the medication, including Epogen, according to the attending physicians’ orders.

Parkview Center personnel stated that they follow “standard industry procedures” in providing
services to their patients and in the documentation of related medical records. These policies and
procedures include processes to record the results of each treatment and changes to existing
treatments, including the dose of Epogen administered, and billing procedures in the Parkview
Center System.

   •	 All changes to the prescribed Epogen dose are recorded in the patient’s medical record.
      This includes written physician orders, verbal orders provided telephonically, and
      changes based on a preestablished algorithm. Changes should be identified and entered
      into the Parkview Center System to ensure that the Epogen dose reflected on the
      treatment sheet is accurate.

   •	 Administering nurses and patient care technicians administer dialysis treatment to
      patients, including administering Epogen, and record each service provided on the
      patient’s treatment sheet. The administering nurse or patient care technician must
      document that each service was provided by signing or initializing each service on the
      treatment sheet and documenting any deviations from the existing attending physician
      orders. After all services have been provided, information from the treatment sheet is


                                                9

       entered in the Parkview Center System. Periodically, Parkview Center converts old
       medical records, including attending physician orders, treatment sheets, and laboratory
       tests into an electronic format and destroys the paper copies.

   •	 Daily, Parkview Center accounting personnel compare the billed medications from the
      Parkview Center System with a service administration report of medications
      administered. Any differences are researched to ensure that the proper amounts are
      billed. The accounting system provides the total units of Epogen that are billed monthly.
      The billing system creates the bills that are submitted to Medicare for payment.
      Parkview Center uses its service administration reports as its audit report.

Although Parkview Center had controls in place as specified, based on our review, Parkview
Center personnel did not always follow all of these procedures. Attending physicians’ orders
changing the dose of Epogen were not always identified and entered into the Parkview Center
System accurately or on a timely basis. Therefore, changes to the attending physicians’ orders
did not always appear on subsequent treatment sheets. Some Parkview Center medical records
did not document the administration of Epogen because the administering nurse failed to
sign/initial the patient treatment sheets. For six claims the medical records did not include the
treatment sheet or physician order for Epogen for one of more treatments.

Also, Parkview Center did not always administer the correct units of Epogen or bill for the units
of Epogen administered to patients and hematocrit levels submitted on claims for Medicare
payment were not always accurate.

RECOMMENDATIONS

We recommend that Parkview Center:

   •	 refund the $106 in overpayments and

   •	 ensure that it follows policies and procedures that are consistent with Federal
      requirements in order to avoid discrepancies between the units of Epogen ordered by
      patients’ physicians and the units administered to the patient, billed by Parkview Center,
      and paid by Medicare.

INDEPENDENT DIALYSIS FOUNDATION COMMENTS

In comments on our draft report, Independent Dialysis Foundation stated that it will contact the
intermediary about refunding the $106 in overpayments, the nursing staff will undergo a training
program to improve compliance with policies and procedures related to documenting patient care
services provided, and physicians were instructed on the correct process to follow for changing
medication orders. Independent Dialysis Foundation’s comments are included in the Appendix.




                                                10 

APPENDIX

                                                                                                                                 APPENDIX
                                                                                                                                  Page 1 of 2

I   i\    I)   F   I' I   ~      II   F :\   1         I>    I A I         \   \   1 ~           F ()       l'   :\   ()   \   1 ION


                                                               IOF
                                                    _Od~""~<JI~
                                                                  ......
                                         840 Hollln$ Street· Baltimore, MlHYland 21201




         AugustS, 2009


         Stephen Virbitsky
         Regional Inspector General for Audit Services
         Otliee of Audit Services. Region III
         Public Ledger Building, Suite 316
         150 S. independence Mall West
         Philadelphia, PA 19106-3499

         Re: Audit Draft A-03-07-0003S, Payments for Epogen Administered allndependent
         Dialysis Foundation Parkview, Baltimore, Maryland

         Dear Mr. Virbitsky

         Thank you    l~)r th~   opportunity to review and respond to your office's Draft Report.

         The results of this draft report are consistent with other Medicare claims reviews
         conducted intcmally by our Nurse Educator as part of ongoing claims audits and
         activities. Of the $64,606 in claims reviewed, $106 was identified by the audit as not
         eligible for ~1edicare reimbursement- reflecting 0.16% of the sampled claims. This
         payment error rate compares favorably to the most recent May 2008 3.7% CERT national
         paid claims.

         In response 10 these audit findings Independent Dialysis Foundation (I0F) will take the
         folio'.'. ing steps·

         DIG Rel.'"ommcndation:

         "Refund the $106 in overpayments"

         IDF Recommendation:

         Based on the age of the claims, we will contact the illtennediary to detemlirie the process
         to repay ove'lJayments.

         OIG neeommendation:

         ··Ensure that it follows policies and procedures that are consistent with Federal requirements
         in order 10 avoid discrep~lJ(;ies between the units of Epogen orJered by patients' physicians
         and Ihe units administered to the patient, billed by Parkvicl\' Center, and paid by Medicare..·

                     Admlnislrlltive otfic<l: PtIorM (410) 468-0900. Fax: (4101468·0911 • Website: www.ldfdn.org
                           IOf DlaIytIo CItflI...: P . _... e ....lnul Squara ' Unlvenlty 01 Maryland • _
                                           Duton • A1!el1BnY • Uono Manor • C _ • Gan'etl
                                         TOO FOR DISA8LEO Maoyllirld Reley 5eMce t·800-735·2256
                                                                                             APPENDIX
                                                                                              Page 2 of 2 





IDF Recommendation:

While the payment error rate is very low, we recognize the need for the clinic to improve
its compliance with policies and procedures relating to the ordering and adminiSlration of
Epogcn. Therefore, the clinic will take the following steps:

All nursing staff will undergo an in-service program designed to infonn staff of
regulations relating to documenting care furnished and the consequences of failing to
confonn to applicable IOF policies, with emphasis on signing and initializing services
provided.

Consistent with the Pan 494 Conditions of Coverage for lhe next 12 months the facilities
Quality Assessment and Improvement Process will review a sampling of active medical
records to monitor improved compliance with applicable IDF medical record
documentation.

During the field work of this audit our attending physicians were advised that orders
changing the dose of medications should be reflected in doctor's orders. and not treatment
sheets, with a corresponding effective date to avoid timing errors that occurred in the
sequence ofthe paper recording of the order and the effective date of medication orders.

Finally, I appreciate the professionalism that was displayed by the audit team and the
efforts that were taken to understand our policies and procedures and assist us with
improving our overall compliance.

Sincerely.




~~
Chief Financial Officer
